Audit Report




OIG-11-086
SAFETY AND SOUNDNESS: Material Loss Review of La Jolla
Bank, FSB
July 14, 2011




Office of
Inspector General
Department of the Treasury
Contents

Audit Report................................................................................................     1

    Causes of La Jolla Bank’s Failure..................................................................          3
      La Jolla Bank Pursued Aggressive Growth in High Risk Loans Without
         Adequate Internal Controls ................................................................            3
      La Jolla Bank Failed When It Could Not Raise Capital .................................                    5

    OTS’s Supervision of La Jolla Bank ..............................................................            6
      OTS Did Not Take Timely Action to Address Weaknesses in La Jolla Bank’s
         Risk Management and Credit Administration Practices ...........................                         7
      OTS’s Use of PCA .................................................................................         9
      OTS’s Internal Failed Bank Review ............................................................            10


Appendices

    Appendix     1:      Objectives, Scope, and Methodology ......................................              12
    Appendix     2:      Background..........................................................................   14
    Appendix     3:      Management Response .........................................................          16
    Appendix     4:      Major Contributors to This Report ...........................................          17
    Appendix     5:      Report Distribution ................................................................   18

Abbreviations

    C&D order            cease and desist order
    CCO                  chief credit officer
    CEO                  chief executive officer
    FDIC                 Federal Deposit Insurance Corporation
    IAR                  internal asset review
    MRBA                 matter requiring board attention
    OIG                  Office of Inspector General
    OTS                  Office of Thrift Supervision
    PCA                  prompt corrective action
    ROE                  report of examination




                         Material Loss Review of La Jolla Bank, FSB (OIG-11-086)                           Page i
This page intentionally left blank.
                                                                                          Audit
OIG
The Department of the Treasury
                                                                                          Report
Office of Inspector General




                        July 14, 2011

                        John E. Bowman, Acting Director
                        Office of Thrift Supervision

                        This report presents the results of our material loss review of the
                        failure of La Jolla Bank, FSB (La Jolla Bank), of La Jolla, California,
                        and of the Office of Thrift Supervision’s (OTS) supervision of the
                        institution. OTS closed La Jolla Bank and appointed the Federal
                        Deposit Insurance Corporation (FDIC) as receiver on February 19,
                        2010. This review was mandated by section 38(k) of the Federal
                        Deposit Insurance Act 1 because of the magnitude of La Jolla
                        Bank’s estimated loss to the Deposit Insurance Fund. As of May
                        31, 2011, FDIC estimated that the loss would be $1.035 billion.
                        FDIC also estimated that La Jolla Bank’s failure resulted in a loss of
                        $6 million to its Transaction Account Guarantee Program. 2

                        Our objectives were to determine the cause of La Jolla Bank’s
                        failure; assess OTS’s supervision of La Jolla Bank, including
                        implementation of the prompt corrective action (PCA) provisions of
                        section 38; and make recommendations for preventing such a loss
                        in the future. To accomplish these objectives, we reviewed the
                        supervisory files and interviewed officials at OTS and FDIC. We
                        conducted our fieldwork from April 2010 through July 2010.
                        Appendix 1 contains a more detailed description of our review
                        objectives, scope, and methodology. Appendix 2 contains
                        background information on La Jolla Bank’s history and OTS’s
                        assessment fees and examination hours.



1
  At the time of La Jolla Bank’s failure, section 38(k) defined a loss as material if it exceeded the greater
of $25 million or 2 percent of the institution’s total assets. Effective July 21, 2010, section 38(k)
defines a loss as material if it exceeds $200 million for calendar years 2010 and 2011, $150 million for
calendar years 2012 and 2013, and $50 million for calendar years 2014 and thereafter (with a
provision that the threshold can be raised temporarily to $75 million if certain conditions are met).
2
  Definitions of certain terms, which are underlined where first used in this report, are available in a
separate document, OIG-11-065, on the Treasury Office of Inspector General’s (OIG) website.


                        Material Loss Review of La Jolla Bank, FSB (OIG-11-086)                       Page 1
In brief, La Jolla Bank failed because of significant asset quality
deterioration and loan losses. This condition resulted from La Jolla
Bank’s aggressive growth in high-risk construction, land, and
commercial loans during the period 2002 to 2008, without
attention to internal controls and changes in the marketplace.
Potential fraud and other misconduct by the chief executive officer
(CEO) and chief credit officer (CCO), brought to the attention of
the board’s audit committee by the thrift’s internal auditor in July
2009, likely contributed to La Jolla Bank adopting its unsafe and
unsound operating strategy. At the time of our review, OTS and
FDIC were investigating potentially fraudulent activity and improper
behavior by the thrift’s officers. We have also referred these
matters and related documentation to the Treasury Inspector
General’s Office of Investigations.

With respect to OTS’s supervision, we found that OTS conducted
timely and regular examinations of La Jolla Bank from 2004
through 2008. These examinations identified a number of issues
with the thrift’s lending and internal controls. Based on these
examinations, OTS issued matters requiring board attention
(MRBA) and recommended that the thrift take corrective action to
resolve the identified weaknesses. These efforts were unsuccessful
in resolving La Jolla Bank’s problems. Finally, in 2009 OTS took
formal enforcement action against the thrift; by then however, it
was too late.

In accordance with its policy, OTS conducted a failed bank review
of La Jolla Bank and similarly concluded that La Jolla Bank’s failure
resulted from its aggressive growth in high-risk construction, land,
and commercial loans. The review also found that the CEO and
CCO contributed to the unsafe and unsound conditions.

Pursuant to P.L. 111-203, the functions of OTS will transfer to
other federal banking agencies on July 21, 2011. Accordingly we
are not making any recommendations to OTS as a result of this
material loss review. In previously issued material loss reviews of
OTS-regulated failed thrifts, we made recommendations to OTS to
address similar matters that were noted with respect to the causes
of La Jolla Bank’s failure and the supervision of the thrift.




Material Loss Review of La Jolla Bank, FSB (OIG-11-086)         Page 2
                        In a written response, OTS stated that our report summarizes the
                        primary causes of La Jolla Bank’s failure, which are consistent with
                        information in OTS’s reports of examination (ROE) and documents
                        in support of the grounds for receivership. OTS’s response is
                        included as appendix 3.

Causes of La Jolla Bank’s Failure
                        La Jolla Bank failed because of significant asset quality
                        deterioration and loan losses, following a period of aggressive
                        growth in high-risk construction, land, and commercial loans. As
                        the thrift grew rapidly from 2002 to 2009, management failed to
                        maintain proper internal controls and the board did not
                        appropriately oversee the thrift’s lending activities. La Jolla Bank
                        attempted to resolve problem loans by making improper loan
                        modifications and extensions, which made loans with late
                        payments appear current. 3 The thrift eventually became critically
                        undercapitalized, was unable to raise capital, and failed.

                        La Jolla Bank Pursued Aggressive Growth in High Risk Loans
                        Without Adequate Internal Controls

                        In 2002, La Jolla Bank changed its business strategy from primarily
                        originating multifamily mortgage loans to aggressively growing a
                        portfolio of high-risk construction, land, and commercial loans.
                        Figure 1 on the following page shows the growth in La Jolla Bank’s
                        portfolio.

                        La Jolla Bank’s management did not ensure that the thrift’s credit
                        administration was adequate. For example, La Jolla Bank used a
                        business model which assigned individuals to overlapping roles and
                        did not ensure adequate segregation of duties in key credit
                        administration and underwriting functions. La Jolla Bank also
                        allowed the CCO to oversee loan origination, underwriting,
                        production, funding, and servicing functions, while simultaneously
                        overseeing credit administration. From an internal control



3
  A loan modification is made by a lender in response to a borrower’s long-term inability to repay the
loan. Loan modifications typically involve a reduction in the interest rate on the loan, an extension of a
loan’s term, a different type of loan, or any combination of the these responses.

                        Material Loss Review of La Jolla Bank, FSB (OIG-11-086)                      Page 3
       standpoint, one person performing all these duties does not provide
       for an adequate level of checks and balances.

Figure 1: La Jolla Bank’s Loan Growth (in millions)




       Source: La Jolla Bank’s Thrift Financial Reports.

       Other weaknesses in the thrift’s operation included the following:

           •   La Jolla Bank allowed certain individuals significant influence
               over the thrift’s loan portfolio by requiring only one loan
               committee member to approve new loans (up to $10
               million), modifications, and extensions.

           •   OTS examiners found that La Jolla Bank’s internal audit
               department had weaknesses. For example, in 2004 the thrift
               had just one full-time auditor. As a result, a number of high-
               risk areas were not audited in a timely manner. OTS’s review
               of the 2004 audit plan revealed that, although high-risk, the
               lending area had not been audited for 2 years and the

       Material Loss Review of La Jolla Bank, FSB (OIG-11-086)           Page 4
                                 interest rate risk/asset liability management area had not
                                 been audited for 3 years. Several years later in 2008, OTS
                                 found that the internal audit department still needed to be
                                 strengthened to identify and correct risk management
                                 weaknesses in the thrift.

                             •   OTS found La Jolla Bank’s internal asset review (IAR)
                                 function was inadequate from 2004 until the thrift’s closing.
                                 The IAR did not include reviews of construction and land
                                 loans or the thrift’s underwriting practices.

                             •   From 2004 through 2008, OTS found that the thrift’s
                                 policies were not adequate. For example, in 2005, the thrift
                                 did not have comprehensive lending policies for all areas of
                                 lending and lacked clear and measurable underwriting
                                 standards.


                         La Jolla Bank Failed When It Could Not Raise Capital

                         As its loans deteriorated, thrift management attempted to resolve
                         problem loans with questionable loan modifications and extensions,
                         a strategy that proved to be both unsound and unsuccessful. 4
                         La Jolla Bank would often either arrange for different borrowers to
                         assume or buy the loans, or grant modifications and extensions,
                         often unsecured and without sufficient underwriting. This strategy
                         only postponed inevitable loan defaults.

                         When La Jolla Bank’s capital became insufficient to support the
                         thrift’s risk profile, La Jolla Bank could not raise the capital it
                         needed. At OTS’s direction, La Jolla Bank’s board attempted to
                         raise capital in 2009 by finding new investors and by converting
                         debt to equity. The board also attempted to engage a large
                         investment banker to assist. These efforts failed. On February 18,
                         2010, OTS concluded that it was highly unlikely that La Jolla Bank
                         would become sufficiently capitalized. The thrift was closed on
                         February 19, 2010.




4
    A problem loan is a commercial loan that is at least 90 days past due.

                         Material Loss Review of La Jolla Bank, FSB (OIG-11-086)         Page 5
OTS’s Supervision of La Jolla Bank
                       OTS conducted timely and regular examinations of La Jolla Bank
                       and provided oversight through its offsite monitoring. In 2004 and
                       subsequent examinations, OTS identified concerns with La Jolla
                       Bank’s business plan, loan policies, and internal controls. OTS
                       generally addressed its concerns through MRBAs and corrective
                       actions. Field visits, however, were not performed in between
                       these examinations to ensure the thrift was taking the necessary
                       corrective actions. Also, it was not until the December 2008
                       examination that examiners determined management practices and
                       board oversight were inadequate, particularly in the key areas of
                       loan underwriting and credit administration.

                       In April 2009, OTS issued a supervisory directive and a troubled
                       condition letter to La Jolla Bank. In September 2009, OTS issued a
                       cease and desist (C&D) order to the thrift. OTS also issued a PCA
                       Directive on February 16, 2010. These actions were too late to
                       save the thrift. On February 19, 2010, OTS closed La Jolla Bank
                       and appointed the FDIC as receiver.

                       Table 1 summarizes the results of OTS’s safety and soundness and
                       limited examinations of La Jolla Bank from May 2004 until its
                       closure in February 2010. 5

   Table 1. Summary of OTS’s Examinations of and Enforcement Actions Against La Jolla Bank
                                                     Examination Results
Examination                                          No. of
start date    Total assets    CAMELS       No. of    recommendations/
and type      (in $ billions) rating       MRBAs corrective actions      Enforcement actions
5/03/2004       $1.6            2/222122                  13                     None
 (full-scope)                                   7
7/25/2005       $2.2            2/232122        1         5                      Debt notification
(full-scope)                                                                     letter 10/18/2005
7/31/2006       $2.8            2/222122        4         13                     None
(full-scope)

9/10/2007       $3.3            2/222122        2         7                      None
(full-scope)



5
  OTS conducted its examinations and performed offsite monitoring of La Jolla in accordance with the
timeframes prescribed in the OTS Examination Handbook.

                       Material Loss Review of La Jolla Bank, FSB (OIG-11-086)                       Page 6
   Table 1. Summary of OTS’s Examinations of and Enforcement Actions Against La Jolla Bank
                                                     Examination Results
Examination                                          No. of
start date    Total assets    CAMELS       No. of    recommendations/
and type      (in $ billions) rating       MRBAs corrective actions      Enforcement actions
12/29/2008     $3.8            4/444332        14        24                     Supervisory
(full-scope)                                                                    directives
                                                                                4/24/2009,

                                                                                11/17/2009,

                                                                                12/08/2009, and
                                                                                12/22/2009

                                                                                Troubled condition
                                                                                letter 4/29/2009

                                                                                C&D 9/09/2009

                                                                                Authorization of
                                                                                formal examination
                                                                                12/29/2010
3/31/2009      $3.8            3/343222        N/A       N/A
(limited to
record
interim
CAMELS
downgrade)
1/4/2010       $3.8            N/A             N/A       1                      PCA notice –
(limited)                                                                       undercapitalized
                                                                                1/22/2010
1/27/2010      $3.8            5/555522        N/A       0                      PCA notice –
(limited)                                                                       critically
                                                                                undercapitalized
                                                                                2/3/2010

                                                                                Supervisory
                                                                                directive 2/04/2010

                                                                                PCA directive
                                                                                2/16/2010

                      OTS Did Not Take Timely Action to Address Weaknesses in
                      La Jolla Bank’s Risk Management and Credit Administration
                      Practices

                      OTS examinations of La Jolla Bank conducted from 2004 through
                      2007 identified weaknesses in risk management and credit

                      Material Loss Review of La Jolla Bank, FSB (OIG-11-086)                         Page 7
administration practices. Among other things, OTS reported in the
ROEs concerns with the thrift’s business plan, loan policies,
internal controls, loan underwriting, and loan modification
practices. With respect to La Jolla Bank’s IAR function, OTS
examiners reported that the function had not kept pace with the
growth of increasingly larger and more complex loans. In this
regard, the examiners found that the IAR function failed to
adequately analyze and document the status of loans, did not
conduct frequent enough inspections, did not downgrade assets in
a timely manner, and at times, upgraded other assets too soon.
The examiners unsuccessfully attempted to get management and
the board to correct its problems through MRBAs and corrective
action recommendations. Despite the repeated findings with the
IAR function, OTS did not take enforcement action during the
period to ensure that these weaknesses were corrected. During this
period, OTS rated the bank a CAMELS composite 2.

It was not until the December 2008 examination that OTS reported
La Jolla Bank’s management’s performance and board oversight
were inadequate. During this examination, OTS determined that
management’s strategy to increase earnings by reducing overhead
costs resulted in a lack of oversight in key areas, particularly loan
underwriting and credit administration. OTS downgraded the
thrift’s composite CAMELS rating to a 4.

In the 2008 ROE, OTS directed La Jolla Bank, again through an
MRBA instead of an enforcement action, to cease all construction,
land, and unsecured commercial lending, and to cease all
refinances, renewals, or modifications of construction, land, and
unsecured commercial loans without OTS approval. OTS also
directed La Jolla Bank to enhance loan modification policy and
practices to document that foreclosure versus modification
decisions were well-supported and prudent, and that loan
modification decisions were appropriate.

In March 2009, while OTS’s 2008 examination was still ongoing,
OTS rated the thrift a CAMELS composite 3. In April 2009, OTS
followed with numerous supervisory directives, a troubled condition
letter, and a C&D order in September 2009. This strong action was
too late to save the thrift.



Material Loss Review of La Jolla Bank, FSB (OIG-11-086)         Page 8
We asked OTS’s examiners and regional officials why stronger
enforcement action was not taken sooner. OTS officials told us
that they relied on thrift management to correct the problems. In
this regard, for years management promised to hire a qualified IAR
manager but it did not do so until 2009. The OTS field manager
stated that the thrift could not manage its quick growth and was
always lagging in taking corrective actions. Finally, he and the
Assistant Director concluded that the thrift’s problems warranted
an enforcement action in 2009 when it was clear the thrift
remained troubled. Overreliance by examiners on unfulfilled thrift
management promises has been a problem noted in other material
loss reviews by our office of OTS-regulated failed thrifts. In the
case of La Jolla, we believe enforcement action was warranted
before 2009, when it may have made a difference.

OTS’s Use of PCA

The purpose of PCA is to resolve problems of insured depository
institutions with the least possible long-term loss to the Deposit
Insurance Fund. PCA requires federal banking agencies to take
certain actions when an institution’s capital drops to certain levels.
PCA also gives regulators flexibility to supervise institutions based
on criteria other than capital levels to help reduce deposit insurance
losses caused by unsafe and unsound practices.

Although we determined that OTS should have acted more
forcefully and sooner to address the unsafe and unsound practices
with La Jolla Bank, we found that OTS imposed PCA timely as
La Jolla Bank’s capital levels deteriorated.

OTS took the following key actions related to La Jolla Bank in
accordance with PCA requirements:

•   During a January 4, 2010, limited examination, OTS determined
    that La Jolla Bank was undercapitalized. On January 22, 2010,
    OTS issued a notice to the thrift’s board that the thrift was
    undercapitalized and had to file a capital restoration plan no
    later than February 5, 2010. OTS’s notice also informed La
    Jolla Bank that it was subject to the PCA restrictions applicable
    to undercapitalized institutions.



Material Loss Review of La Jolla Bank, FSB (OIG-11-086)          Page 9
•   On February 3, 2010, OTS notified La Jolla Bank that the thrift
    was critically undercapitalized and was subject to additional
    PCA restrictions. These included restricting compensation paid
    to senior executive officers and payments on subordinated debt.

•   La Jolla Bank submitted a capital restoration plan on February 5,
    2010, but OTS considered it unacceptable. OTS concluded the
    plan was not based on realistic assumptions and was unlikely to
    succeed in restoring La Jolla Bank’s capital. OTS informed
    La Jolla Bank that it found the plan unacceptable when it issued
    the thrift a PCA directive on February 16, 2010.

OTS closed La Jolla Bank on February 19, 2010, and appointed the
FDIC as receiver.

OTS Internal Failed Bank Review

In accordance with its policy, OTS completed an internal failed bank
review of La Jolla Bank and concluded, similar to our MLR that
La Jolla Bank’s failure was caused by aggressive growth and a high
level of higher risk construction and land loans. These loans
deteriorated in the economic downturn and caused unsustainable
losses that eroded the thrift’s capital. The review also concluded that
losses suffered by the Deposit Insurance Fund were partially
attributable to the actions of the former CEO and former CCO, who
were less than forthcoming during OTS examinations, extended
unsecured lines to keep other loans current, granted loans and
extensions with stale appraisals, and modified existing credits to avoid
the classification and recognition of losses. The review found that
OTS did not ensure these weaknesses were corrected and that OTS
should have performed field visits in between annual examinations to
verify the extent of corrective actions implemented by management
and, if necessary, mandated stronger supervisory action to ensure
compliance. The review recommended that OTS document repeat
violations in ROEs and require a written response from the board, so
the OTS regional office can monitor the status of prior corrective
actions until all matters have been fully completed.

OTS internal failed bank review also noted a lack of field visits by
examiners between examinations.



Material Loss Review of La Jolla Bank, FSB (OIG-11-086)        Page 10
                         ******

We appreciate the cooperation and courtesies extended to our staff
during the audit. If you wish to discuss the report, you may
contact me at (617) 223-8640 or Sharon Torosian, Audit Manager,
at (617) 223-8642. Major contributors to this report are listed in
appendix 4.


/s/
Donald P. Benson
Audit Director




Material Loss Review of La Jolla Bank, FSB (OIG-11-086)     Page 11
                          Appendix 1
                          Objectives, Scope and Methodology




                          We conducted this material loss review of La Jolla Bank, FSB
                          (La Jolla Bank), of La Jolla, California, in response to our mandate
                          under section 38(k) of the Federal Deposit Insurance Act. 6 This
                          section provides that if the Deposit Insurance Fund incurs a
                          material loss with respect to an insured depository institution, the
                          inspector general for the appropriate federal banking agency is to
                          prepare a report to the agency that

                          •   ascertains why the institution’s problems resulted in a material
                              loss to the insurance fund;
                          •   reviews the agency’s supervision of the institution, including its
                              implementation of the prompt corrective action provisions of
                              section 38; and
                          •   makes recommendations for preventing any such loss in the
                              future.

                          At the time of La Jolla Bank’s failure, on February 19, 2009,
                          section 38(k) defined a loss as material if it exceeds the greater of
                          $25 million or 2 percent of the institution’s total assets. We
                          initiated a material loss review of La Jolla Bank based on the loss
                          estimate by the Federal Deposit Insurance Corporation (FDIC). As
                          of May 31, 2011, FDIC estimated that the loss to the Deposit
                          Insurance Fund from La Jolla Bank’s failure would be $1.035
                          billion. 7

                          Our objectives were to determine the causes of La Jolla Bank’s
                          failure; assess the Office of Thrift Supervision’s (OTS) supervision
                          of the thrift, including implementation of the PCA provisions of
                          section 38; and make recommendations for preventing such a loss
                          in the future. To accomplish our review, we conducted fieldwork at
                          OTS’s Western Region field office in Daly City, California. We also
                          performed work and interviewed officials at FDIC’s Division of
                          Resolutions and Receiverships in Irvine, California. We conducted
                          our fieldwork from April 2010 through July 2010.

                          To assess the adequacy of OTS’s supervision of La Jolla Bank, we
                          performed the following work:



6
    12 U.S.C.§1831o(k).
7
     At closing, the loss estimate to the Deposit Insurance Fund was $882.3 million.


                          Material Loss Review of La Jolla Bank, FSB (OIG-11-086)         Page 12
Appendix 1
Objectives, Scope and Methodology




•   We reviewed OTS’s supervisory files and records for La Jolla
    Bank from 2004 through February 2010. We analyzed reports
    of examination, supporting workpapers, and related supervisory
    and enforcement correspondence. We performed these analyses
    to gain an understanding of the problems identified, the
    approach and methodology OTS used to assess the thrift’s
    condition, and the regulatory action OTS used to compel thrift
    management to address deficient conditions.

•   We interviewed and discussed various aspects of the
    supervision of La Jolla Bank with OTS officials and examiners to
    obtain their perspectives on the thrift’s condition and the scope
    of the examinations.

•   We interviewed FDIC officials who were responsible for
    monitoring La Jolla Bank for federal deposit insurance purposes.

•   We interviewed personnel from FDIC’s Division of Resolutions
    and Receiverships involved in the receivership process, which
    was conducted after La Jolla Bank’s closure and appointment of
    FDIC as receiver.

•   We assessed OTS’s actions based on its internal guidance and
    requirements of the Federal Deposit Insurance Act.(12 U.S.C. §
    1811 et seq.)

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Material Loss Review of La Jolla Bank, FSB (OIG-11-086)       Page 13
Appendix 2
Background




History of La Jolla Bank

La Jolla Bank, FSB (La Jolla Bank), began operations under the
name of La Jolla Village Savings Bank in 1985, in La Jolla,
California. In 1992, the thrift changed its organization type to a
stock savings bank and name to La Jolla Bank, FSB. La Jolla Bank
was a wholly owned subsidiary of La Jolla Bancorp, Inc (Bancorp),
a non-diversified, unitary thrift holding company. Bancorp was 100
percent owned by five Warren family trusts that were formed
solely to own stock in Bancorp. The Frank R. and Joanne C.
Warren La Jolla Stock Revocable Trust owned 80 percent and four
trusts established for the Warren’s four children each owned a five
percent interest. Bancorp issued a total of $65 million of trust
preferred securities in 2003, 2004, and 2005 and was dependent
upon dividends from La Jolla Bank to make payments on the debt.
La Jolla Bank reported total assets of $3.6 billion as of December
31, 2009.

La Jolla Bank had 124 employees and nine branches in Southern
California and one branch in Dallas, Texas. La Jolla Bank was a
portfolio lender that historically originated multifamily and non-
residential mortgage loans, which totaled one half of the thrift’s
total assets by December 31, 2009. In 2005, La Jolla Bank began
experiencing significant growth in higher-risk assets including land,
commercial real estate, and speculative construction loans. By
December 31, 2009, these loan types amounted to 40 percent of
La Jolla Bank’s loan portfolio.

Office of Thrift Supervision Assessments Paid by La Jolla Bank

Office of Thrift Supervision (OTS) funds its operations in part
through semiannual assessments on thrifts. OTS determines each
institution’s assessment by adding together three components
reflecting the size, condition, and complexity of an institution. OTS
computes the size component by multiplying an institution’s total
assets, as reported on its thrift financial report, by the applicable
assessment rate. The condition component is a percentage of the
size component and is imposed on institutions that have a 3, 4, or
5 CAMELS composite rating. OTS imposes a complexity
component if (1) a thrift administers more than $1 billion in trust
assets; (2) the outstanding balance of assets fully or partially

Material Loss Review of La Jolla Bank, FSB (OIG-11-086)        Page 14
Appendix 2
Background




covered by recourse obligations or direct credit substitutes exceeds
$1 billion, or (3) the thrift services over $1 billion of loans for
others. OTS calculates the complexity component by multiplying
set rates by the amounts by which an association exceeds each
threshold. Table 2 shows the assessments that La Jolla Bank paid
to OTS from 2004 through 2010.

Table 2: Assessments Paid by La Jolla Bank to OTS, 2004–2010
 Billing Period             Exam Rating         Amount Paid
 1/1/2004   -   6/30/2004            2                    $131,280
 7/1/2004   -   12/31/2004           2                     146,685
 1/1/2005   -   6/30/2005            2                     168,861
 7/1/2005   -   12/31/2005           2                     186,364
 1/1/2006   -   6/30/2006            2                     212,069
 7/1/2006   -   12/31/2006           2                     228,986
 1/1/2007   -   6/30/2007            2                     257,702
 7/1/2007   -   12/31/2007           2                     282,325
 1/1/2008   -   6/30/2008            2                     307,141
 7/1/2008   -   12/31/2008           2                     317,559
 1/1/2009   -    6/30/2009           2                     335,239
 7/1/2009   -   12/31/2009           3                     515,129
 1/1/2010   -   6/30/2010            4                     696,216
Source: OTS.


Number of OTS Staff Hours Spent Examining La Jolla Bank

Table 3 on the next page shows the number of OTS staff hours
spent examining La Jolla Bank from 2004 to 2010.

Table 3: Number of OTS Hours Spent Examining La Jolla Bank, 2004-2010


 Examination Start Date       Exam Type           Number of Examination Hours
 5/3/2004                  Full                                            853
 7/25/2005                 Full                                          1,127
 7/31/2006                 Full                                          1,288
 9/10/2007                 Full                                          1,475
 12/29/2008                Full                                          2,737
 1/4/2010                  Limited                                         751
Source: OTS Electronic Continuing Examination Folder system




Material Loss Review of La Jolla Bank, FSB (OIG-11-086)                  Page 15
Appendix 3
Management Response




Material Loss Review of La Jolla Bank, FSB (OIG-11-086)   Page 16
Appendix 4
Major Contributors To This Report




Boston Audit Office

Sharon Torosian, Audit Manager
Jeanne DeGagne, Auditor-In-Charge
Alex Taubinger, Auditor
Joshua Lee, Auditor

Washington, D.C.

Shaneasha Edwards, Referencer




Material Loss Review of La Jolla Bank, FSB (OIG-11-086)   Page 17
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary of the Treasury
    Office of Strategic Planning and Performance Management
    Office of Accounting and Internal Control

Office of Thrift Supervision

    Acting Director
    Liaison Officer

Office of Management and Budget

    OIG Budget Examiner

U. S. Senate

    Chairman and Ranking Member
    Committee on Banking, Housing, and Urban Affairs

    Chairman and Ranking Member
    Committee on Finance

U.S. House of Representatives

    Chairman and Ranking Member
    Committee on Financial Services

Federal Deposit Insurance Corporation

    Acting Chairman
    Inspector General

U.S. Government Accountability Office

    Comptroller General of the United States




Material Loss Review of La Jolla Bank, FSB (OIG-11-086)   Page 18
